HHS/OIG, Audit -"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in New York
State During the Period January 1, 1997 through December 31, 1999,"(A-02-02-01002)
Department
of Health and Human Services
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in New York State During the Period
January 1, 1997 through December 31, 1999," (A-02-02-01002)
December 6, 2002
Complete
Text of Report is available in PDF format (4.45 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare fee-for-service claims paid in New York for beneficiaries
identified as incarcerated during the period January 1, 1997 through December 31, 1999 were in compliance with Federal
regulations and Centers of Medicare and Medicaid Services guidelines.  New York was one of 10 states selected for
review.  We found 74 percent of our sample of 100 claims in New York were appropriate.  However, 16 claims totaling $597
were unallowable according to Medicare reimbursement requirements.  The claims were submitted on behalf of beneficiaries
who were either undergoing a court ordered competency assessment (13 claims totaling $476) or were in correctional facilities
(3 claims totaling $122).  In accordance with New York State law, medical care in these cases was the financial responsibility
of the state.  We could not determine the allowability of 10 claims totaling $1,066.